No. 20-891

Jfntbe

$>Upreme (ourt of tbe Wniteb $>1ate~
AMERICAN AxLE

& MANUFACTURING, INC.,
Petitioner,
v.

NEAPCO HOLDINGS LLC AND
NEAPCO DRIVELINES LLC,

Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
BRI F OF AMICUS CURIAE HOUSTON INTELLECTUAL PROPERTY LAW ASSOCIATION
IN SUPPORT OF PETITIONER

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on March 1, 2021, a copy of the Brief of AMICUS
CURL

Houston Intellectual Property Law Association in support of Petitioner in the

above captioned case was served, as required by U.S. Supreme Court Rule 29.5(c), on
the fo lowing via email only:
Jam s Richard Nuttall
Step oe & Johnson LLP
227 est Monroe, Suite 4700
Chic go, IL 60606
(312 577-1260
jnu ll@steptoe.com

Cou sel for Petitioner
Ame ican Axle & Manufacturing, Inc.

J. Michael Huget
Honigman LLP
315 East Eisenhower Parkway
Suite 100
Ann Arbor, MI 48108
(734) 418-4254
mhuget@honigman.com

Counsel for Respondent Neapco
Holdings LLC, et al.

These parties agreed to electronic service.
All p

ties required to be served have been served.

rKreitz

Trinity Legal Discovery
815 Walker St. Suite 353
Houston, Texas 77002
Swor to and subscribed before me this 1st day of March, 2021.

